           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



   OFFICE OF HEARINGS AND APPEALS
   CASE FILE ASSEMBLY CONTRACTS



     August 2004   A-07-04-24092




 MANAGEMENT
ADVISORY REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                          SOCIAL SECURITY

MEMORANDUM

Date:   August 13, 2004                                                                      Refer To:

To:     The Commissioner

From:   Acting Inspector General

Subject: Management Advisory Report: Office of Hearings and Appeals Case File Assembly
        Contracts (A-07-04-24092)

        OBJECTIVE

        The objective of our review was to provide the Social Security Administration (SSA) with
        recommendations to correct the weaknesses we identified during our review,
        Congressional Response Report: Review of File Assembly Contracts at Offices of
        Hearings and Appeals (A-07-04-24076). The objectives of that review were to
        determine whether:

        •     Office of Hearings and Appeals (OHA) file assembly contactors followed the terms of
              the contracts.

        •     File assembly contractors had controls in place to safeguard sensitive information
              contained in case files.

        •     OHA provided adequate oversight of file assembly contractor activities.

        BACKGROUND

        Within SSA, OHA is responsible for conducting hearings and issuing decisions as part
        of determining whether a person may receive disability benefits. When a claimant
        requests a hearing, it is held before an OHA administrative law judge (ALJ). The ALJ
        conducts the hearing and issues a written decision. Cases involving disability under the
        Disability Insurance program1 and the Supplemental Security Income (SSI) program2
        account for 90 percent of OHA's work. The remainder consists of claims made under
        the Retirement and Survivors Insurance program, Medicare, and non-disability claims
        under the SSI program.

        1
            Social Security Act § 223, 42 USC 423; 20 CFR 404.1601 et seq.
        2
            Social Security Act § 1631 et seq., 42 USC 1383 et seq. 20 CFR 416.100 et seq.
Page 2 – The Commissioner


OHA’s organizational structure includes 10 regional offices and 139 hearing offices.
Some OHA offices use contractors to prepare case files for review by ALJs. The
contractors organize medical documents chronologically, arrange documents in
appropriate sections of the case files, number documents, identify and retain duplicate
documents, and ensure all pertinent documents are appropriately labeled. As of
October 31, 2003, OHA had 74 file assembly contracts valued at approximately
$1.3 million.

During 2003, problems with OHA oversight of file assembly contracts in an OHA office
resulted in several media stories and a subsequent review by the Office of the Inspector
General (OIG). As a follow-up to the OIG report and to inquire as to whether similar
problems existed in other OHA offices, Congressman E. Clay Shaw, Jr. requested in a
letter dated October 14, 2003 that we review additional file assembly contracts. We
issued our report entitled Review of File Assembly Contracts at Office of Hearings and
Appeals (A-07-04-24076) to Congressman Shaw on March 3, 2004.

For our review, we selected one file assembly contract in each of SSA’s 10 regions, as
shown in the following table:

                                                                               Contract
       Region                               OHA Office
                                                                               Amount
        Boston      Boston, Massachusetts                                         $4,500

      New York      New York, New York (Northeastern Program Service Center)       7,248

     Philadelphia   Philadelphia, Pennsylvania (Philadelphia East)                19,968

        Atlanta     Atlanta, Georgia                                              13,762

       Chicago      Cincinnati, Ohio                                              12,000

        Dallas      Dallas, Texas (Processing Center)                             54,210

     Kansas City    Springfield, Missouri                                         16,817

        Denver      Denver, Colorado                                               6,000

    San Francisco   San Jose, California                                          17,190

        Seattle     Portland, Oregon                                              18,672


See Appendix B for the scope and methodology of our review.

RESULTS OF REVIEW
With the exception of the file assembly contractor in the Boston region, the file assembly
contractors we reviewed followed the terms of their respective contracts and had
Page 3 – The Commissioner

controls in place to safeguard sensitive information in case files. The file assembly
contractor in the Boston region, however, removed documents from case files, which
was not in accordance with the terms of the contract. Following removal from the case
files, the documents were placed in a recycle bin and supposedly shredded. According
to the contractor, only duplicate documents were removed from the case files.
However, we were unable to verify what documents were removed from the case files
and if these documents were only duplicates.

We also identified areas where OHA’s oversight of file assembly contractor activities
could be improved. Specifically,

•   Case file assembly contractors did not receive consistent training from some OHA
    offices on case file assembly because the instructions were not consistent with the
    terms of the contracts regarding the removal of documents from case files.

•   Some OHA offices did not have controls in place to safeguard case files because
    case file assembly contractors and the janitorial contractor in one OHA office were
    allowed inappropriate and unsupervised access to case files.

CONTRACTOR IN THE BOSTON REGION REMOVED
DOCUMENTS FROM CASE FILES

The file assembly contractor in the Boston region inappropriately removed documents
from case files. Following removal from the case file, the documents were placed in a
recycle bin to be shredded.3 This was contrary to the terms of the contract, which
stated that documents could not be discarded or permanently removed from case files,
and OHA training instructions, which stated that no documents could be thrown away.
According to the contractor, only duplicate documents were removed from case files
and shredded. This was also contrary to the terms of the contract, which stated that
duplicate documents were to be marked “duplicate” and retained in the case file.

At the time of our review, approximately 24 case files had been assembled by this
contractor.4 We were unable to determine how many of these case files contained
documents that were discarded, whether the contractor only discarded duplicate
documents, or whether the contractor discarded documents that were material to the




3
 The Boston OHA office used a separate contractor to shred documents. We could not verify that the
documents were in fact shredded.
4
 The contract was for 100 case files to be completed during the period of September 29, 2003 through
September 28, 2004.
Page 4 – The Commissioner

disability decision. The project officer for the file assembly contract stated that he was
unaware that the contractor removed documents from the case files. He further stated
that the contractor would be instructed not to remove documents from the case files.5

IMPROVEMENTS ARE NEEDED IN OHA’S OVERSIGHT
OF FILE ASSEMBLY CONTRACTORS

The training instructions given to contractors by some OHA offices were not consistent
with the terms of the contracts.6 Specifically,

      •   The written training instructions provided to the Philadelphia, Springfield, and
          Portland contractors stated that duplicate documents should be removed from
          the case files and discarded. However, the contracts stated that duplicate
          documents must be marked “duplicate” in the top right-hand corner and placed at
          the back of the section of the case file in which it was found.7 We found that
          these three contractors followed the terms of their respective contracts and
          retained duplicate documents in the case files.

      •   The written training instructions provided to the New York and Portland
          contractors specified that certain documents could be removed from the case
          files and discarded.8 However, the contracts stated that no documents were to
          be discarded. We found that these two contractors followed the terms of their
          contracts and did not discard documents.

If contractors used the training instructions as reference material they could
inappropriately discard documents needed for accurate disability decisions. The
potential problems associated with conflicting instructions could be resolved if OHA had
a standardized training package that each OHA office used to train file assembly
contractors.

5
  According to comments received from SSA’s Deputy Commissioner for Finance, Assessment and
Management on February 26, 2004, of the 24 case files assembled by this contractor, one received a
fully favorable decision and one is pending a fully favorable decision. The remaining 22 cases are
pending a hearing. The Deputy Commissioner also stated that SSA will notify claimants that documents
may have been removed from their case files and afford them the opportunity to review their case files for
completeness.
6
  The project officers for eight of the contracts provided us with the instructions they used to train the
contractors. Training given to the Atlanta and Denver contractors did not include written training
instructions.
7
    Neither the training instructions nor the contracts defined what constituted duplicate.
8
 According to the training instructions, contractors are allowed to discard blank Forms SSA-5002, Report
of Contact; carbon copies of Forms SSA-561, Request for Reconsideration; field office copies of
Forms HA-501, Request for Hearing; numident queries in most Title II claims; Forms SSA-1719Bs, SSI
Posteligibility Input; Forms SSA-827, Authorization for Source to Release Medical Information to SSA, if
dated six months earlier than the current date; and blank or carbon copies of Disability Determination
Services development worksheets/case development records.
Page 5 – The Commissioner

In addition, some OHA offices did not have controls in place to safeguard case files.
Specifically,

    •   The Cincinnati file assembly location is in SSA space in a non-Government
        building. According to a memo issued by the Associate Commissioner for
        Hearings and Appeals (see Appendix C), contractors located in SSA space in
        non-Government buildings should only have access to case files currently in
        process. Files not in process should be secured in a locked room, which is
        inaccessible to the contractors. In Cincinnati, case files were stored in the file
        assembly location so contractors had inappropriate access to case files that were
        not currently in process.

    •   The San Jose and Portland file assembly locations were counsel rooms, and the
        Denver contractors were located in vacant SSA space in a Government building.9
        According to the Associate Commissioner’s guidelines, contractors located in
        counsel rooms should only be given enough work for one day and must return all
        case files to the project officer at the end of the day. In these three locations,
        case files were stored in the file assembly location so contractors had
        inappropriate access to more case files than could be worked in one day and
        case files were not returned to the project officer at the end of the work day.

    •   The Denver and Portland file assembly contractors were allowed unmonitored,
        immediate and continued access to case files. This occurred because case files
        were stored in the file assembly location where the doors were equipped with
        keyless code entry systems with access codes that were known to the
        contractors. According to the Associate Commissioner’s guidelines, file
        assembly contractors located in counsel rooms should obtain the key to the file
        assembly location from the receptionist and return the key once the door is
        unlocked so the use of keyless code entry systems for file assembly locations is
        not consistent with the Associate Commissioner’s instructions. We also found
        that the janitorial contractor in Denver was allowed to enter the file assembly
        location even if Government employees or file assembly contractors were not
        present. For security reasons, the janitors should not have unsupervised access
        to the file assembly location since case files are stored there.

    •   The access code provided to the Portland contractor for the file assembly
        location was the same as the access code for an IVT room. The IVT room also
        had an unlocked door, which leads into OHA office space. Therefore, the
        contractor could use the access code to enter the IVT room and then gain

9
 The memo from the Associate Commissioner gives different guidelines for file assembly contractors
based on the file assembly location, either a counsel/Interactive Video Teletraining (IVT)/hearing room,
program service center, or SSA space in a non-Government building. The file assembly location in
Denver does not fit into any of these categories. Since the guidelines for contractors in
counsel/IVT/hearing rooms are the most restrictive and based on our review of the file assembly location,
we determined that the file assembly contractors in Denver are subject to the guidelines for file assembly
contractors in counsel/IVT/hearing rooms.
Page 6 – The Commissioner

        unsupervised access to case files in the OHA office.10 According to the
        Memorandum of Understanding governing file assembly contracts, contractors
        “…will not be issued access codes/keys to the hearing office.”11

Some project officers stated that the file assembly contractors understood and
respected the integrity of case files so extensive safeguarding measures were not
needed. We disagree and believe that case files should be safeguarded at all times.

The memo issued by the OHA Associate Commissioner gives varying guidelines
depending on the locality of the file assembly location. The guidelines are divided
between file assembly locations in counsel/IVT/hearing rooms, program service centers
(PSC), and SSA space in non-Government buildings. See Appendix C for the specific
guidelines given by the Associate Commissioner.

There is room for improvement in the OHA Associate Commissioner’s
November 2003 guidelines. The guidelines, as currently written, could lead to the
security of case files being compromised. Specifically:

     • The guidelines do not provide adequate security for case files in file assembly
        locations in PSCs or non-Government buildings. Contractors in these file
        assembly locations may leave case files in the file assembly location and may
        move in and out of the file assembly location at will. In these situations, we
        believe case files may be compromised.

     • The guidelines do not address all file assembly locations. For example, as noted
        above, the Denver file assembly location does not fit into any of the three
        categories in the instructions because the location is not in a counsel/IVT/hearing
        room, a PSC, or a non-Government building. In locations such as this, OHA
        offices may follow inappropriate guidelines or no guidelines.

CONCLUSION AND RECOMMENDATIONS
We found that 9 of the 10 file assembly contractors included in our review followed the
terms of their respective contracts and had adequate controls in place to safeguard
information in the case files. However, OHA’s oversight of contractor activities needs
improvement to ensure consistent training instructions for case file assembly and case
file safeguards.



10
  Our interview and observation in Portland took place in December 2003. According to the supervisor
over file assembly contractors in Portland, the access code to the IVT room was changed on
February 1, 2004, so file assembly contractors no longer have access to the OHA office.
11
  Memorandum of Understanding Regarding Management’s Decision to Contract Out Pre-hearing Case
Folder Assembly Work, dated May 15, 2002, Section A (2)(b), Independent Contractors in the Hearing
Office.
Page 7 – The Commissioner

We recommend that SSA:

   1. Ensure the Boston contractor is following the correct procedures for case file
      assembly.

   2. Ensure that the case files assembled by the Boston contractor contain complete
      evidence to render an accurate disability decision.

   3. Develop standardized guidelines for file assembly contractors to ensure
      consistent and accurate training in all OHA regions.

   4. Issue guidelines that ensure the security of case files at all file assembly
      locations.

AGENCY COMMENTS

In response to our draft report, SSA agreed with our recommendations. See
Appendix D for the full text of SSA’s comments.




                                             S
                                             Patrick P. O'Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Memo from OHA Associate Commissioner

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                             Appendix A

Acronyms
     ALJ   Administrative Law Judge

     IVT   Interactive Video Teletraining

     OHA   Office of Hearings and Appeals

     OIG   Office of the Inspector General

     PSC   Program Service Center

     SSA   Social Security Administration

     SSI   Supplemental Security Income
                                                                                    Appendix B

Scope and Methodology
We collected and analyzed information specific to the concerns raised by Congressman
E. Clay Shaw, Jr., regarding file assembly contracts at Offices of Hearings and
Appeals (OHA). To achieve our objectives, we:

      •   Reviewed the previously issued reports Review of File Assembly Contracts at
          Offices of Hearings and Appeals (A-07-04-24076); Operations at the Social
          Security Administration’s Milwaukee, Wisconsin, Office of Hearings and Appeals
          (A-13-03-23091); and Chicago Regional Office of Hearings and Appeals
          Claimant Medical Files (A-13-04-24045).

      •   Reviewed the Memorandum of Understanding Regarding Management’s
          Decision to Contract Out Pre-hearing Case Folder Assembly Work dated
          May 15, 2002; Program Operations Manual System Disability
          Insurance 70005.005; the Social Security Acquisition Handbook, Security
          Requirements Clause; and the Memorandum from A. Jacy Thurmond, Jr.,
          Associate Commissioner for Hearings and Appeals, dated November 21, 2003.

      •   Obtained a listing of all OHA file assembly contracts as of October 31, 2003, and
          selected for review the largest dollar valued contract within close proximity to an
          Office of Audit field office in each of the Social Security Administration’s (SSA)
          10 regions.1 The contracts selected for review are listed on Page 2 of this report.

      •   Interviewed the contractor and project officer and observed the file assembly
          location for each contract to determine if the terms of the contract were being
          followed and adequate oversight was being provided for case file assembly.2




1
  Some of the contractors on the listing had not begun work on the contract and were excluded from
being selected for our review. File assembly contractors cannot begin working until they have cleared a
pre-screening suitability determination by SSA’s Protective Security Suitability Program Officer. Due to a
recent backlog of processing suitability determinations, some contractors had not begun working at the
time of our review.
2
    The interviews and observations were conducted in December 2003.


                                                   B-1
The SSA operating component reviewed was the Office of Hearings and Appeals within
the Office of the Deputy Commissioner for Disability and Income Security Programs.
We performed our review at OHA file assembly locations in Boston, Massachusetts;
New York, New York; Philadelphia, Pennsylvania; Atlanta, Georgia; Cincinnati, Ohio;
Dallas, Texas; Springfield, Missouri; Denver, Colorado; San Jose, California; and
Portland, Oregon from October 2003 through March 2004. We conducted our review in
accordance with Quality Standards for Inspections Issued by the President’s Council on
Integrity and Efficiency.




                                         B-2
                               Appendix C

Memo From OHA Associate Commissioner
C-1
C-2
C-3
                  Appendix D

Agency Comments
                                          SOCIAL SECURITY
MEMORANDUM                                                                           34076-24-1225


Date:        August 3, 2004                                                        Refer To: S1J-3

To:          Patrick P. O'Carroll, Jr.
             Acting Inspector General

From:        Larry W. Dye /s/
             Chief of Staff

Subject:     Office of the Inspector General (OIG) Draft Management Advisory Report "Office of Hearings
             and Appeals Case File Assembly Contracts" (A-07-04-24092)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
           and recommendations are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                          D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
MANAGEMENT ADVISORY REPORT “OFFICE OF HEARINGS AND APPEALS
(OHA) CASE FILE ASSEMBLY CONTRACTS” (A-07-04-24092)


Thank you for the opportunity to review and comment on the draft report. We agree with the
report findings and conclusions and we have already undertaken several initiatives to improve
the oversight of the folder assembly contract process. Specifically, we issued reminders via
email and held conference calls with all project officers and regional staff involved in this
contracting activity. We also instituted a Folder Assembly Workgroup (FAW) to develop and
implement a plan to improve the oversight and ensure the security of claimant information.
Initiatives developed and completed under the auspices of the workgroup include:

•   Conducting mandatory training and certification for managers in OHA who act as project
    officers for contractor services;
•   Preparing and distributing a folder assembly checklist for use by all contractors with a
    reminder that no documents should be discarded;
•   Developing and distributing security guidelines; and
•   Obtaining regular reports from hearing offices (HO) regarding the contract process.

The workgroup also developed a monitoring guide for all HOs participating in this initiative and
conducted on-site reviews in 10 regional offices, 48 HOs and 2 centralized assembly units to
closely monitor contractor performance and to ensure that all guidelines are properly
implemented. While minor deficiencies were identified for 8 of the HOs, they were easily
corrected and all offices are now in compliance.

Our responses to the specific recommendations are provided below.

Recommendation 1

SSA should ensure the Boston contractor is following the correct procedure for case file
assembly.

Response

We agree. As stated in our February 26, 2004 comments to the Congressional Response Report,
the impacted files were part of the contractor's initial assignment and the project officer, as part
of his review of the files, initiated immediate corrective action. In addition, the HO Director
reminded the contractor that recycling or shredding duplicate documents is inappropriate and
that all duplicate records are to be placed in the “junk file” section of the Modular Disability
Folder. In February 2004, the contractor had completed assembling the 100 cases we initially
contracted for and as of today, the Boston HO has not and does not plan to contract for any
additional file assembly work to be performed by the end of the fiscal year.




                                                D-2
Recommendation 2

SSA should ensure that the case files assembled by the Boston contractor contain complete
evidence to render an accurate disability decision.

Response

We agree. On March 5, 2004, letters were sent to all potentially impacted claimants affording
them the opportunity to review the evidence in their claims files. As of today, no irregularities
were found in any of the claims files. There is only one claimant whose case is still pending a
decision by an administrative law judge (ALJ); the hearing for that case was held on June 21,
2004.

Recommendation 3

SSA should develop standardized guidelines for file assembly contractors to ensure consistent
and accurate training in all OHA regions.

Response

We agree. The FAW developed uniform procedures and guidelines to be followed for contract
file assembly. The guidelines were distributed to all HOs with file assembly contracts in
February 2004. In addition, between January and March 2004, members of the workgroup met
with the project officers, either in person or by videoconference, in every office with contracts in
place this year, to review the procedures and provide additional instruction where necessary. At
the present time, there are no plans to contract the file assembly function after the end of this
fiscal year.

Recommendation 4

SSA should issue guidelines that ensure the security of case files at all file assembly locations.

Response

We agree. As reported above, we developed and distributed a procedures manual to every HO
with file assembly contracts in place. In addition, on February 3, 2004, the Associate
Commissioner for Hearings and Appeals (ACOHA) held an “all managers” conference call to
discuss the proper procedures to be followed for contract file assembly. In addition, the ACOHA
issued a memo to all offices on February 6, 2004 (copy attached) to reinforce the topics
discussed during the conference call. Finally, the FAW will continue to provide oversight and
support to HOs with contracts in place this year.




                                                D-3
                                                                       Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Mark Bailey, Director, Central Audit Division (816) 936-5591

   Shannon Agee, Audit Manager, Central Audit Division (816) 936-5590

Acknowledgments

In addition to those named above:

   Tonya Coffelt, Auditor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-07-04-24092.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
